          U.S. Department of Energy
          Office of Inspector General
          Office of Audits and Inspections




Audit Report
The Department of Energy's Clean
Cities Alternative Fuel Vehicle Grant
Program Funded under the
American Recovery and
Reinvestment Act




OAS-RA-12-12                             May 2012
                                  Department of Energy
                                    Washington, DC 20585
                                          May 22, 2012


MEMORANDUM FOR THE SECRETARY


FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The Department of Energy's Clean
                         Cities Alternative Fuel Vehicle Grant Program Funded under the
                         American Recovery and Reinvestment Act"

INTRODUCTION AND OBJECTIVE

Under the American Recovery and Reinvestment Act of 2009, the Department of Energy's Clean
Cities Alternative Fuel Vehicle Grant Program (Clean Cities Program) received nearly
$300 million, or 30 times its Fiscal Year 2009 funding of approximately $10 million. From this
amount, the Department awarded grants ranging from $5 million to $15 million to 25 recipients,
including Clean Cities coalitions and other entities that partnered with coalitions. Clean Cities
coalitions are volunteer groups that join with public and private sector organizations to promote
alternative and renewable fuels, fuel economy measures and new technologies. Grant funding
may be used for the construction or upgrade of alternative-fueling sites and the purchase of
commercial vehicles capable of using alternative fuels, including garbage and transport trucks,
buses and taxis. The Department required each grant recipient to comply with Federal
regulations governing financial assistance awards and to provide at least 50 percent of a project's
funding (cost-share). As of March 2012, grantees had expended about $170 million of their
Recovery Act funding.

Because of the importance of the Recovery Act and the dramatic increase in funding, we initiated
this audit to determine whether the Department had effectively managed the Clean Cities
Program.

RESULTS OF AUDIT

Our review disclosed that the Department had followed established procedures for the
solicitation, merit review and selection of the Clean Cities projects. However, the Department
had not always effectively managed the use of Recovery Act funding and other post-award
aspects of the Clean Cities Program. In our review of seven recipients, we found that the
Department had inappropriately:

     •   Reimbursed a recipient about $1.5 million for costs incurred even though the costs were
         not substantiated. Similarly, the Department approved $615,000 in unsubstantiated
         cost-share contributions. The lack of substantiation raises transparency issues and
                                                 2


         increases the risk that the Department will pay more than its agreed upon share of
         project costs. Ultimately, based in part on the results of our review, the Department
         reduced total project costs by approximately $2 million;

     •   Paid one recipient $250,000 for a down payment on an alternative-fueling station that
         had been invoiced 3 months prior to the grant's authorized spending date of July 2009.
         After we pointed this issue out, the Department immediately recovered the $250,000;

     •   Approved a claim for $164,000 in cost-share contributions even though the recipient
         lacked documentation supporting the reasonableness of costs. Accordingly, we
         questioned the $164,000 in unsupported cost-share contributions; and,

     •   Allowed three recipients to award almost $20 million without documenting their
         decisions to award contracts and/or identifying potential conflicts of interest as required
         by Federal procurement regulations. Consequently, the Department lacked assurance
         that goods and services were procured from the most qualified sources at the best price
         available. Therefore, we questioned nearly $3.3 million spent on the projects to date
         and almost $1.4 million in cost-share commitments.

Inadequate policies and procedures, and ineffective oversight contributed to the grant
administration issues we identified. The Department relied, in large measure, on Clean Cities
grant recipients to disclose conflicts of interest and to ensure costs incurred were reasonable
without adequately monitoring the grant recipients. For example, Department officials were
unaware of a potential conflict of interest involving a coalition board member's company that
had been awarded a contract. The recipient had claimed lease payments to a company owned by
the board member's family. This was despite information in the award file that, in our view,
should have led to questions about the relationship.

We acknowledge that significant responsibilities are placed on coalition recipients to identify and
mitigate potential conflicts of interest and to form teaming partnerships prior to the award of a
Clean Cities grant under Federal regulations. However, the operating environment of the
coalitions requires robust Departmental oversight to ensure that procurement costs are reasonable
and to provide the Federal program transparency expected by taxpayers. Specifically, it is
important to note that coalitions are comprised of geographically-based networks of individuals
and organizations often with mutual business interests. In such situations, heightened
Departmental awareness of the potential for conflicts of interest is necessary.

The issues discussed in our report could, if unresolved, ultimately affect the credibility of the
Clean Cities Program. In total, we questioned about $5 million in direct payments to recipients
and nearly $2 million in cost-share contributions claimed by recipients (see Appendix 1). With
about $130 million yet to be spent by the Clean Cities Program, the Department has an
opportunity to proactively evaluate and address the significant risks inherent in overseeing a
complex program involving numerous coalitions. As such, we made several recommendations to
address the issues discussed in our report.
                                                  3


MANAGEMENT REACTION

Management disagreed with many of our findings and recommendations. Specifically,
management did not agree with our conclusions regarding policies and procedures governing
procurements and potential conflicts of interest, nor did it agree with all of the questioned costs
identified. In response to our report, management stated it had developed and implemented
adequate policies and procedures for the selection and administration of financial assistance
awards. Regarding the procurement issues identified, management asserted that recipients had
competed for services and teaming arrangements prior to the approval of the awards and,
therefore, were not bound by Federal procurement regulations. Further, management
emphasized that teaming arrangements approved as part of the award process were properly
reviewed and that they were integral to the success of the projects. Regarding our finding on
identifying and mitigating conflicts of interest, management noted that recipients are responsible
for ensuring all transactions are free from such conflicts.

Management concurred with our recommendation regarding recipient reimbursement requests,
but stated that contracting officers already reviewed requests for the allowability of costs
incurred and cost-share amounts contributed. Additionally, management stated that its
contracting officers had reviewed, and worked expeditiously to resolve, cost and cost-share
claims in the amount of about $640,000. We noted that the Department had taken action on
approximately $2.5 million in questioned costs and cost-share contributions. However,
management did not concur with other costs we questioned, totaling about $4.5 million relating
to unsupported costs, conflicts of interest and procurement concerns (see Appendix 1).

We do not believe management's response fully and satisfactorily addresses our audit findings
and recommendations. Specifically, contrary to management's assertions that it had adequate
policies and procedures, we noted the Clean Cities Program did not have formal procedures
requiring officials to review available information submitted by recipients regarding potential
conflicts of interest and to enforce requirements pertaining to the documentation of procurement
decisions.

Further, management asserted that competition was not required. However, we emphasize that,
for the cases in question, recipients had procured services after their award had been granted and
therefore, due to requirements in the award documents, should have complied with Federal
procurement regulations. In further support of our position, we note that recipients other than the
ones cited in our report had solicited competitive bids with no reported harmful effects on
teaming arrangements. Regarding management's position on the identification and mitigation of
conflicts of interest, we agree that recipients are responsible for ensuring all transactions are free
of such conflicts. However, it is our position that the Department also has significant
responsibility in this arena, particularly in regard to overseeing awards in which potential
conflicts of interest could jeopardize the integrity of the Clean Cities Program. We remain
concerned that recipients awarded contracts to businesses owned by or employing board
members of the very same recipient coalitions and to employees or their families. We further
note that although one recipient in question had provided information to the Department that
could have identified a potential conflict of interest, officials had not properly reviewed such
information and taken action to resolve a potential conflict.
                                                4


Despite management's assertion that contracting officers reviewed reimbursement requests for
allowability, the requests had been approved by project officers and contracting specialists
without sufficient documentation to justify approval. Therefore, we continue to believe that
Clean Cities Program officials should review recipient reimbursement requests for the
allowability of costs incurred and cost-share amounts contributed.

Overall, we recognize the risks inherent in the administration of complex, multi-million dollar
grants, such as those awarded under the Clean Cities Program. The importance of the
Department's oversight activities in these circumstances, therefore, cannot be overstated.

We appreciate the actions taken by the Department to recover and resolve $640,000 in incurred
costs and cost-share contributions, as well as the questionable costs resolved by management
during the course of our review. We are hopeful that management will reconsider its positions
regarding our concerns about conflicts of interest and competitive procurement. Accordingly,
we reaffirm our recommendation that the contracting officers review about $4.5 million in
questioned costs and cost-share claims as part of an official determination regarding cost
allowability.

Management's comments are included in their entirety in Appendix 3.

Attachment

cc: Deputy Secretary
    Associate Deputy Secretary
    Acting Under Secretary of Energy
    Assistant Secretary for Energy Efficiency and Renewable Energy
    Chief of Staff
REPORT ON THE DEPARTMENT OF ENERGY'S CLEAN CITIES
ALTERNATIVE FUEL VEHICLE GRANT PROGRAM FUNDED UNDER
THE AMERICAN RECOVERY AND REINVESTMENT ACT
TABLE OF
CONTENTS


Clean Cities Alternative Fuel Vehicle Grant Program

Details of Finding ......................................................................................................................... 1

Recommendations .......................................................................................................................... 7

Comments ..................................................................................................................................... 8


Appendices

1.     Questioned Costs .................................................................................................................. 11

2.     Objective, Scope and Methodology ..................................................................................... 12

3.     Management Comments ....................................................................................................... 14
THE DEPARTMENT OF ENERGY'S CLEAN CITIES ALTERNATIVE
FUEL VEHICLE GRANT PROGRAM FUNDED UNDER THE AMERICAN
RECOVERY AND REINVESTMENT ACT
CLEAN CITIES    We found the Department of Energy (Department) had followed
ALTERNATIVE     established procedures for the solicitation, merit review and
FUEL VEHICLE    selection of the Clean Cities projects. However, the Department
GRANT PROGRAM   had not always effectively managed the use of American Recovery
                and Reinvestment Act of 2009 (Recovery Act) funding and other
                post-award aspects of the Clean Cities Alternative Fuel Vehicle
                Grant Program (Clean Cities Program). In particular, we found
                issues pertaining to questionable reimbursements and cost-share
                contributions, costs incurred prior to award, and recipient
                procurement decisions that had not been documented as required
                by Federal regulations. As a result of the identified issues, we
                questioned about $5 million in incurred costs and about $2 million
                in cost-share contributions claimed by recipients (See Appendix 1).

                   Questionable Reimbursements and Cost-Share Contributions

                The Department approved questionable reimbursement claims and
                cost-share contributions for three of the seven recipients we
                reviewed. In one case, we noted that the Department reimbursed a
                recipient for unsubstantiated costs claimed and approved
                unsupported cost-share contributions totaling approximately
                $2.1 million. The unsubstantiated costs and cost-share
                contributions were especially troubling and resulted from
                transactions involving a potential conflict of interest. Specifically,
                one recipient awarded funding to an individual who was also a
                Clean Cities coalition member to construct alternative fuel-
                dispensing pumps at seven fueling stations. We determined that
                the coalition member claimed and was reimbursed by the
                Department approximately $1.5 million for fuel station upgrades
                despite the fact that the upgrades included equipment not related to
                the purpose of the grant. Additionally, upgrades to the fueling
                stations represented a potential conflict of interest because the
                coalition member leased the fueling stations from a family
                member's company in which the individual served as the vice-
                president. We also questioned approximately $615,000 claimed as
                a cost-share contribution resulting from the same questionable,
                related-party lease transaction. Unsubstantiated cost-share
                contributions increased the risk that the Department could pay
                more than its agreed upon share of project costs (See Appendix 1,
                Example 1).

                Department officials informed us they were pursuing questionable
                payments to, and cost-share contributions from, the recipient at the
                time of our audit. Based on documents provided by the
                Department to us, the contracting officer disallowed the entire


Page 1                                                           Details of Finding
         cost-share associated with the leases and reduced total project costs
         by approximately $2 million, in part, as a result of the potential
         conflict of interest we identified during our review.

         The Department paid a second recipient $250,000 for costs that
         were incurred over 3 months prior to the authorized grant award
         spending date of July 2009. The recipient requested reimbursement
         for a down payment it had made in April 2009, on an alternative-
         fueling station. Recipient officials informed us that they had
         requested reimbursement because the station was not completed
         until months after the authorized spending date. Department
         officials told us that they had overlooked the date and erred in
         approving the amount submitted. As a result of our audit, the
         Department recovered the $250,000 (See Appendix 1, Example 2).

         Finally, the Department approved nearly $164,000 in cost-share
         contributions that were unsupported, including credit for
         contributing $83,000 in coalition expenses and $81,000 in
         unsupported labor and materials costs. According to the budget
         documents, the cost-share contributions for the $83,000 in
         coalition expenses were not part of the approved budget. As a
         result of our audit, Department officials required the recipient to
         either exclude these costs from its next invoice or revise and justify
         its formerly approved budget. The same recipient claimed that it
         had contributed approximately $81,000 toward its cost-share
         commitment for other labor and materials costs. However, the
         available documentation lacked the information needed to
         adequately support the reasonableness of costs, such as actual labor
         hours and invoices for purchased equipment. Consequently, we
         questioned the cost-share contributions (See Appendix 1,
         Example 3). The Department stated the $81,000 in questioned
         cost-share represented a portion of a fixed-price contract between
         the prime and subcontractor attributable to the grant, and therefore,
         was not subject to delivery of additional supporting data such as
         hourly wages, labor hours completed and material costs. However,
         the available documentation submitted to the Department, as part
         of the reimbursement request, lacked evidence that the costs
         claimed corresponded to the items in the approved project budget
         and did not contain costs specifically unallowable such as
         Federally-sourced funds.

                               Recipient Procurements

         Of the seven grant recipients reviewed, we found three had
         procured goods and services totaling nearly $20 million without




Page 2                                                    Details of Finding
         documenting the results of award decisions and/or identifying
         potential conflicts of interest. Specifically:

             • Despite Federal regulations and the Department's detailed
               instructions, one recipient had awarded contracts totaling
               approximately $13 million for the construction of 10
               alternative-fuel stations and purchases of alternative-fuel
               vehicles, without documenting the results of its award
               decisions, including its cost/price analyses. Specifically,
               without publicly soliciting bids, the recipient awarded
               contracts for widely available services such as project
               management, consulting, software implementation, and
               outreach, in addition to construction of fueling
               infrastructures. Coalition officials informed us that they
               "did not issue any bid requests" or "solicit bids" for any of
               the contracts awarded. Instead they relied on proposals
               prepared by interested parties that had been made aware of
               funding through word of mouth and a coalition email to a
               network of associates. Additionally, the coalition could not
               provide us with any documentation that it had analyzed the
               competing unsolicited proposals that it received nor could it
               provide us with a documented justification for its selection
               decisions. In our view, the lack of a publicaly announced
               solicitation for bids, as was made by other coalition
               recipients, and the lack of any costs/price analyses of
               alternative proposals raises questions about the
               reasonableness of subcontract costs incurred by the
               recipient. Accordingly, we questioned approximately
               $3 million paid to the recipient by the Department and
               nearly $1 million in cost-share commitments as of the date
               of our review (see Appendix 1, Example 4).

             • Two recipients had awarded contracts, even though
               potential conflicts of interest existed. Coalitions are
               comprised of geographically-based networks of individuals
               and organizations with mutual interests. Their very
               structure makes coalitions vulnerable to doing business
               within an established network and may affect achievement
               of the Recovery Act's requirements to promote
               accountability and transparency. Given the millions of
               dollars in awards received and distributed by coalitions, we
               are concerned about potential conflicts of interest we
               observed during our review. For example:




Page 3                                                  Details of Finding
          A recipient awarded nearly $6.5 million of its
           almost $15 million grant to companies either
           owned by or employing board members of its
           participating coalition. While the recipient had
           solicited bids, its awards were of particular
           concern, because entities associated with the
           coalition board members received over 40 percent
           of the available funding, and there was no
           documentation demonstrating that the recipient had
           taken action to mitigate the potential conflicts of
           interest. The recipient told us that the coalition
           board members who received subcontracts were
           not involved in the selection of subcontractors.
           The subcontractor selection was made by
           employees of the recipient; however, both
           selection officials were also members of the
           coalition board. There was no documentation
           supporting that coalition board members were
           excluded from the selection process. Additionally,
           the recipient did not have any documentation
           showing how it mitigated the appearance of a
           conflict of interest created by both selection
           officials also being on the coalition board with
           other members who were either employed by, or
           owners of, companies that submitted subcontract
           proposals and subsequently received awards. As
           of the date of our review, the Department had paid
           the recipient about $170,000 for costs incurred and
           allowed nearly an additional $375,000 in cost-
           share contributions (see Appendix 1, Example 5).

            Department officials stated that because the
            recipient was solely responsible for subcontract
            selection, there did not appear to be a conflict of
            interest. However, as discussed above, in our
            view, the appearance of a conflict of interest
            existed because the selecting officials were also
            coalition board members, who served with other
            members awarded subcontracts.

          Another coalition recipient had used approximately
           $33,000 of its grant funds to pay for administrative
           services provided by a consulting company owned
           by the coalition president. Further, the coalition
           noncompetitively awarded a $360,000 subcontract



Page 4                                       Details of Finding
         for grant administration to an investment company
         after the coalition president became the investment
         company's vice-president. Although there was no
         indication the individual personally approved the
         contract, the coalition president's continuing role,
         in our view, gives rise to a potential conflict of
         interest in monitoring and overseeing expenditures
         under the contract. During our review, we found
         no evidence of a mitigation plan for the potential
         conflicts of interest at the Department or the
         recipient level. As of our review, the Department
         had reimbursed the investment company over
         $72,000. We questioned approximately $105,000
         of administrative costs incurred and paid to various
         subcontractors as of the date of our review (See
         Appendix 1, Example 6).

         The Department disagreed that the above situation
         created an appearance of a potential conflict of
         interest. Specifically, the Department stated the
         coalition president prepared the initial application
         for the Clean Cities Program award and had
         substantial knowledge about the entire project and
         requirements that could not be quickly replaced.
         Further, the Department noted that the coalition
         initially did not have a mechanism to pay the
         president, so the coalition paid the individual
         through the president's own consulting company.
         Subsequently, the coalition decided to subcontract
         with the investment company when the individual
         changed employment because it wanted to retain
         the individual's services and to ensure continuity in
         administering the grant. According to the
         Department, the individual was recused from the
         decision to select the new company to administer
         the grant.

         Despite the Department's assertions, we noted that
         as the coalition president and board member, the
         individual was ultimately responsible for payments
         to its consulting company. Additionally, while the
         Department stated that the coalition did not have a
         mechanism to pay the individual, we noted that the
         individual became a paid coalition employee for a
         short period of time before changing employment
         to the investment company. In addition, an

Page 5                                  Details of Finding
                                 independent audit of the recipient specifically
                                 identified the relationship between the coalition
                                 president, the individual's consulting company, and
                                 the investment company as a related-party
                                 transaction. Such disclosures are made to address
                                 potential conflicts of interest.

                 Federal regulations expressly prohibit individuals from entering
                 into any contract if a real or perceived conflict of interest exists.
                 Specifically, 10 CFR 600.142 governing non-profit organizations
                 states that:

                        "No employee, officer, or agent shall participate in the
                        selection, award, or administration of a contract
                        supported by Federal funds if a real or apparent conflict of
                        interest would be involved. Such a conflict would arise
                        when the employee, officer, or agent, any member of his or
                        her immediate family, his or her partner, or an
                        organization which employs or is about to employ any of
                        the parties indicated herein, has a financial or other
                        interest in the firm selected for an award. The officers,
                        employees, and agents of the recipient shall neither solicit
                        nor accept gratuities, favors, or anything of monetary
                        value from contractors, or parties to sub-agreements."

                 The importance of ensuring fair and open competition, free from
                 any potential conflicts of interest, cannot be overstated.

GRANT            Inadequate policies and procedures and ineffective oversight
ADMINISTRATION   contributed to the grant administration issues we identified.
                 Specifically, we found the Department had not developed formal
                 policies and procedures requiring officials to review funded
                 projects for potential conflicts of interest and to ensure that
                 recipients met Federal procurement requirements pertaining to the
                 reasonableness of costs. While the Department's guidance on
                 Financial Assistance Awards required a "consideration" of the
                 relationships among partnerships or consortiums during the award
                 process, the guidance did not contain formal procedures that
                 required Federal project managers to review relationships and
                 transactions that may create conflicts of interest. Our review of
                 award files found no evidence that the Department had reviewed
                 the grants for potential conflicts of interest. In fact, prior to our
                 audit, Department officials were unaware of the previously cited
                 example in which a coalition board member's company had been
                 awarded a contract and was claiming lease payments to a family-




Page 6                                                             Details of Finding
                  owned company despite information being in the award files that,
                  in our view, should have led the Department to question the
                  relationship.

                  Additionally, although Federal regulations and associated award
                  cost principles require recipients to provide adequate support for
                  their claims for reimbursement, the Department had not thoroughly
                  reviewed recipient requests to ensure all costs were reasonable and
                  well documented. The Department's project officer and
                  contracting specialist are responsible for reviewing requests for
                  reimbursement and cost-share contributions for reasonableness and
                  allowability. However, our review showed the Department had
                  approved cost-reimbursement requests and cost-share claims
                  without sufficient documentation to justify approval. Finally,
                  while the Department generally performs site visits to recipients,
                  we found that these visits focus on technical aspects of the projects
                  and do not include reviews of compliance with Federal
                  procurement requirements.

                  Management officials told us that grant recipients were primarily
                  responsible for ensuring compliance with Federal procurement and
                  conflict of interest rules. Further, management stated that the
                  Department relies on the recipients' vigilance to ensure that Federal
                  funds are efficiently managed. We are, however, concerned that
                  the risk of fraud, waste and abuse is increased if the Department
                  does not provide adequate oversight to ensure the reasonableness
                  of costs and mitigation of potential conflicts of interest.

                  Given the questionable claims, lack of information justifying the
                  reasonableness of contract costs, and potential conflicts of interest,
                  we questioned about $5 million in incurred costs and about
                  $2 million in cost-share contributions claimed by recipients (See
                  Appendix 1). To its credit, as previously discussed, the
                  Department acted on several issues identified during our audit and
                  had resolved nearly $2.5 million in questioned costs and cost-share
                  contributions.

RECOMMENDATIONS   Given the significant amount of funding remaining to be spent, the
                  Department has an opportunity to ensure a successful path forward.
                  To help achieve the objectives of the Recovery Act, we
                  recommend that the Assistant Secretary for Energy Efficiency and
                  Renewable Energy direct Clean Cities Program officials to:

                      1.   Develop formal procedures to identify and mitigate
                           potential conflicts of interest and to enforce requirements
                           pertaining to documentation of procurement decisions;
                           and,

Page 7                                                            Recommendations
                         2. Review recipient reimbursement requests for the
                            allowability of costs incurred and cost-share amounts
                            contributed.

                   Additionally, we recommend that the contracting officers for the
                   Clean Cities Program:

                         3. Resolve questioned costs remaining of about $3.2 million
                            and questioned cost-share claims of about $1.3 million
                            (See Appendix 1).

MANAGEMENT         Management did not fully concur with our report. Specifically,
REACTION AND       officials did not agree with our findings and recommendations
AUDITOR RESPONSE   regarding policies and procedures governing procurements and
                   potential conflicts of interest, nor did they agree that all costs
                   identified in our report were questionable. In addition,
                   management provided technical comments that are addressed in
                   the body of the report. Management's comments and our responses
                   are discussed below. Management's comments are included in
                   their entirety in Appendix 3.

                                          Management Comments

                   In response to Recommendation 1, management stated that it had
                   already developed and implemented adequate policies and
                   procedures for the selection and administration of its financial
                   assistance awards and disagreed with our finding regarding a
                   recipient's procurement of services without free and open
                   competition. Specifically, management noted that the recipient in
                   question had competed subcontracts prior to their awards, and
                   therefore, was not required to follow Federal procurement
                   requirements. Management stated that requiring competition post-
                   award might have altered the composition of the assembled teams,
                   a major factor in the selection of the recipient. Regarding our
                   concerns about the existence of potential conflicts of interest,
                   management noted that under applicable regulations, recipients
                   bear the primary responsibility for identifying and mitigating real
                   or apparent conflicts. Management stated that when it receives
                   allegations of potential conflicts of interest, it collaborates with the
                   recipient to investigate and determine appropriate mitigation
                   measures when required. After reviewing the circumstances
                   surrounding the potential conflicts of interest identified in our
                   audit, management concluded that recipients appropriately
                   identified and mitigated the potential conflicts.




Page 8                                                                        Comments
         Management concurred with Recommendation 2; however, it
         asserted that contracting officers currently review reimbursement
         requests for allowability of costs incurred and cost-share amounts
         contributed and would continue to do so.

         Finally, in response to Recommendation 3, management stated that
         contracting officers had reviewed the costs and cost-share claims
         that we questioned and deemed $640,000 as unallowable. As
         discussed, the Department had taken action on approximately
         $2.5 million in questioned costs and cost-share contributions.
         Management did not concur with other costs we questioned,
         totaling about $4.5 million relating to unsupported costs, conflicts
         of interest, and procurement concerns (See Appendix 1).

                                   Auditor Response

         We do not believe management's response fully and satisfactorily
         addresses our audit findings and recommendations. Regarding
         management's position on procuring services, we noted that
         although one of the recipients discussed in our report had selected
         subcontractors before the award, it had not selected them through a
         competitive process, as asserted by management. Ultimately, the
         recipient awarded $13 million in subcontracts without ensuring
         that these subcontracts were the most cost-effective means of
         achieving program goals and in the best interest of the taxpayers.
         Additionally, the subcontracts discussed in our report were actually
         awarded subsequent to the grant awards. Under Federal
         regulations, the recipients, therefore, were required to either bid for
         services or prepare cost/price analyses justifying the
         reasonableness of costs, neither of which was done. In further
         support of our position, we note that recipients other than the ones
         cited in our report had solicited bids with no reported harmful
         effects on teaming arrangements.

         Regarding potential conflicts of interest, we underscore the
         importance of the Department's oversight in ensuring the integrity
         of the Clean Cities Program. Applicable regulations set a high bar
         to prevent real or apparent conflicts of interest for Departmental
         programs. The existence, or even the perception, of a conflict of
         interest undermines the public's confidence in the integrity of the
         Department's Clean Cities Program. We remain concerned that
         significant contracts were ultimately awarded to businesses owned
         by or employing recipient board members and to employees or
         their families. Neither the recipients nor the Department had taken




Page 9                                                             Comments
          what we would consider to be appropriate action to protect
          taxpayer interests in ensuring that contracts are selected, awarded
          and administered free of potential conflicts of interest.

          While we agree that the Department has numerous policies and
          procedures regarding the award and administration of financial
          assistance, we noted the Clean Cities Program did not have formal
          procedures requiring officials to review available information
          submitted by recipients regarding potential conflicts of interest and
          to enforce requirements pertaining to the documentation of
          procurement decisions.

          Further, although contracting officers reportedly reviewed
          reimbursement requests for allowability of costs incurred and cost-
          share amounts contributed, our audit showed that cost-
          reimbursement requests and cost-share claims were approved by
          project officers and contracting specialists without sufficient
          documentation to justify approval. Therefore, we reaffirm our
          recommendation that program officials review recipient
          reimbursement requests for the allowability of costs incurred and
          cost-share amounts contributed.

          We appreciate the actions taken by the Department to recover and
          resolve $640,000 in incurred costs and cost-share contributions, as
          well as the questionable costs resolved by the Department during
          the course of our review. We encourage management to
          reconsider its positions regarding our concerns with conflicts of
          interest and procurement, and accordingly, we reaffirm our
          recommendation that the contracting officers review about
          $4.5 million in questioned costs and cost-share claims as part of an
          official determination regarding cost allowability.




Page 10                                                            Comments
Appendix 1

                                   QUESTIONED COSTS

                                           Table I

                                                                            Resolved by
                  Example                  Incurred Costs   Cost-Share      Department

     1. Transactions Involving a
        Potential Conflict of Interest      $1,500,000       $615,000       $2,115,000


     2. Costs Incurred Prior to Award        $250,000            $0          $250,000
                                                              $164,000
                                                            (Excluded in
     3. Excessive and Unsupported                            Cost-Share
        Cost-Share                              $0             Total)        $83,000

     4. Lack of Documented Award
        Decision
        (Includes $164,000 identified in
        Cost-Share Example 3)               $3,000,000      $1,000,000          $0

     5. Potential Conflict of Interest
        with Board Members                   $170,000        $375,000           $0

     6. Charges Incurred by President
        of Coalition's Company and
        Contract Awarded to New
        Company                              $105,000           $0              $0


    TOTAL                                   $5,025,000      $1,990,000      $2,448,000



    TOTAL REMAINING TO BE
    RESOLVED                                $3,275,000      $1,292,000




Page 11                                                                    Questioned Costs
Appendix 2

OBJECTIVE     To determine whether the Department of Energy (Department) had
              effectively managed the Clean Cities Alternative Fuel Vehicle
              Grant Program (Clean Cities Program) funded under the American
              Recovery and Reinvestment Act of 2009 (Recovery Act).

SCOPE         This audit was performed between June 2010 and April 2012, at
              the Department's Headquarters in Washington, DC, and the
              National Energy Technology Laboratory in Morgantown, WV and
              Pittsburgh, PA. In addition, we conducted site visits with seven
              recipients and 34 sub-recipients.

METHODOLOGY   To accomplish the objective, we:

                   •   Obtained and reviewed relevant laws and regulations
                       related to implementation of the Recovery Act and
                       financial assistance awards administration;

                   •   Reviewed the Funding Opportunity Announcement,
                       merit review information, and selection documentation;

                   •   Conducted site visits to seven recipients and 34 sub-
                       recipients to observe assets purchased and future sites of
                       projects, interview officials, and analyze financial
                       transactions and implementation of financial assistance
                       requirements as prescribed by the terms and conditions
                       of the awards;

                   •   Reviewed all invoices submitted for reimbursements
                       made through the date of our site visits with each
                       recipient;

                   •   Obtained access to the Department's Strategic Integrated
                       Procurement Enterprise System and reviewed individual
                       award files for the seven selected recipients;

                   •   Interviewed project officers, contract specialists and the
                       contracting officer for each of the seven recipient
                       awards; and,

                   •   Conducted interviews and meetings with Department
                       officials and General Counsel.




Page 12                                  Objective, Scope and Methodology
Appendix 2 (continued)

                    We conducted this performance audit in accordance with generally
                    accepted Government auditing standards. Those standards require
                    that we plan and perform the audit to obtain sufficient, appropriate
                    evidence to provide a reasonable basis for our findings and
                    conclusions based on our audit objectives. We believe the
                    evidence obtained provides a reasonable basis for our findings and
                    conclusions based on our audit objective. Accordingly, we
                    assessed significant internal controls and compliance with laws and
                    regulations to the extent necessary to satisfy the audit objective. In
                    particular, we assessed the Department's implementation of the
                    GPRA Modernization Act of 2010 and determined that it had
                    established performance measures for the management of the
                    Clean Cities Program. Because our review was limited, it would
                    not necessarily have disclosed all internal control deficiencies that
                    may have existed at the time of our audit. Finally, we conducted
                    an assessment of computer-processed data relevant to our audit
                    objective and found it to be reliable.

                    Department officials waived an exit conference.




Page 13                                          Objective, Scope and Methodology
Appendix 3

             MANAGEMENT COMMENTS




Page 14                            Management Comments
Appendix 3 (continued)




Page 15                  Management Comments
Appendix 3 (continued)




Page 16                  Management Comments
                                                                  IG Report No. OAS-RA-12-12

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

     1.   What additional background information about the selection, scheduling, scope, or
          procedures of the audit or inspection would have been helpful to the reader in
          understanding this report?

     2.   What additional information related to findings and recommendations could have been
          included in the report to assist management in implementing corrective actions?

     3.   What format, stylistic, or organizational changes might have made this report's overall
          message more clear to the reader?

     4.   What additional actions could the Office of Inspector General have taken on the issues
          discussed in this report which would have been helpful?

     5.   Please include your name and telephone number so that we may contact you should
          we have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                  U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

      Your comments would be appreciated and can be provided on the Customer Response Form.
